TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                Workforce Planning Efforts Are Hindered by a
                  Lack of Comprehensive Information on
                          Employee Skills Levels



                                        February 24, 2009

                              Reference Number: 2009-10-041




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                      DEPARTMENT OF THE TREASURY
                                                            WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                    February 24, 2009


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT
                DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT

 FROM:                            Michael R. Phillips
                                  Deputy Inspector General for Audit

 SUBJECT:                         Final Audit Report – Workforce Planning Efforts Are Hindered by a
                                  Lack of Comprehensive Information on Employee Skills Levels
                                  (Audit # 200710042)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) efforts to
 evaluate employee skills levels. The overall objective of this review was to evaluate the IRS’
 progress in developing a methodology to evaluate whether its workforce possesses the skills and
 competencies (hereafter collectively referred to as skills) necessary to meet current and future
 challenges. This review was part of the Treasury Inspector General for Tax Administration
 Fiscal Year 2008 Annual Audit Plan coverage under the major management challenge of Human
 Capital1 and is one of a series of audits planned to assess how the IRS is addressing the Human
 Capital management challenge.

 Impact on the Taxpayer
 The potential loss of a large number of its most experienced technical employees within the next
 several years, coupled with the continually increasing complexity of the work performed by
 these employees, necessitate that the IRS conduct effective workforce planning. However, the
 IRS lacks the comprehensive, agency-wide information on mission critical employee skills it
 needs to effectively perform this planning. Because the IRS does not have a methodology in
 place to fully measure its workforce against current and future skills, it is missing the opportunity
 to reshape its workforce to meet future challenges, which could adversely affect the quality of
 service provided to taxpayers.

 1
     The term “human capital” is used to describe the skills, abilities, and contributions of the people in an agency.
                           Workforce Planning Efforts Are Hindered by a Lack of
                           Comprehensive Information on Employee Skills Levels




Synopsis
The work performed by IRS employees continually requires enhanced and more diverse skills, as
manual systems used to support tax administration become computer based, the Tax Code
becomes more complex, and American taxpayers and tax practitioners expect higher levels of
service. However, the IRS lacks the comprehensive, agency-wide information on mission
critical employee skills it needs to effectively assess its workforce needs.
The lack of employee skills information we identified is primarily attributable to the absence of a
corporate process for the uniform collection, compilation, and analyses of skills data across the
agency. In addition, the IRS Human Capital Office (HCO) has not provided sufficient guidance
to support the uniform collection of these data at the business unit and operating division levels.
However, the IRS HCO has begun to develop a methodology to identify and assess employee
skills gaps agency-wide. Until the IRS implements a consistent methodology for assessing the
skills needed and possessed by all employees in mission critical occupations,2 it will be unable to
fully plan for future training and recruitment needs.
The IRS HCO informed us that it is evaluating the feasibility of partnering with the Office of
Appeals to develop a process for performing skills gaps assessments of mission critical
occupations. This process would use the Enterprise Learning Management System3 as a platform
to collect information regarding critical skills needed and to document the results of skills
assessments. This platform would also allow for the preparation of development plans tailored
to address any skills gaps identified and would include an automated link between the skills gaps
assessment process and available training courses. A key objective of this effort is the
development of a skills assessment process that could ultimately be used agency-wide.
While we believe that the current approach by the IRS HCO is reasonable, improvements are
needed to ensure accountability and maintain progress as the IRS moves forward with its efforts
to develop a skills gaps assessment process. Specifically, the IRS HCO has not developed a
detailed plan to guide the agency’s overall efforts and coordinate the multifunctional actions
necessary to ensure the success of this effort.

Recommendations
We recommended that the IRS Human Capital Officer continue with efforts to partner with one
or more business units/operating divisions to develop a workable corporate process for skills
gaps assessments. We also recommended that the Deputy Commissioner for Operations Support

2
  Mission critical occupations are those positions critical to front-line enforcement or in direct support to front-line
operations needed to meet the stated IRS goals.
3
  The Enterprise Learning Management System is used for managing and documenting employee training.


                                                                                                                           2
                        Workforce Planning Efforts Are Hindered by a Lack of
                        Comprehensive Information on Employee Skills Levels



and the Deputy Commissioner for Services and Enforcement develop a detailed plan to guide the
IRS’ overall skills gaps assessment effort and coordinate the multifunctional participation
necessary to ensure the success of this effort. This plan should be developed in coordination
with the IRS business units and operating divisions, identify periodic milestones, and assign
accountability for specific actions.

Response
IRS management agreed with all of our recommendations. The IRS HCO in partnership with the
Office of Appeals has initiated a pilot for assessing the competencies of tax compliance
specialists, a mission critical occupation. A successful pilot will demonstrate the feasibility of
implementing these automated processes throughout the Office of Appeals. The pilot will also
be evaluated for expansion to other business units/operating divisions. In addition, under the
auspices of the IRS Workforce of Tomorrow’s4 “Planning a Dynamic People Strategy,” the task
force will work with subject matter experts from the IRS HCO and the business units to develop
a competency management system. This group will identify the skills and competencies to be
tracked across the IRS as well as the process for tracking skills and compiling the data. Once the
process is established, the system will be populated with skills and competencies information for
each employee. Finally, when the system is fully populated with skills and competencies data, it
will be fed back into the IRS-wide attrition and workload models to enable strategic analysis of
skills gaps and needs. Management’s complete response to the draft report is included as
Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have any questions or
Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations), at (202) 622-8500.




4
 The Workforce of Tomorrow task force was established by the Commissioner to ensure that 5 years from now the
IRS has the leadership and workforce ready for the next 15 years.


                                                                                                                3
                              Workforce Planning Efforts Are Hindered by a Lack of
                              Comprehensive Information on Employee Skills Levels




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Efforts to Develop a Comprehensive Methodology
          to Assess Employee Skills Need to Be Better Coordinated..........................Page 3
                    Recommendation 1: .........................................................Page 4

                    Recommendation 2: .........................................................Page 5


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 6
          Appendix II – Major Contributors to This Report ........................................Page 7
          Appendix III – Report Distribution List .......................................................Page 8
          Appendix IV – Management’s Response to the Draft Report ......................Page 9
      Workforce Planning Efforts Are Hindered by a Lack of
      Comprehensive Information on Employee Skills Levels




                 Abbreviations

HCO        Human Capital Office
IRS        Internal Revenue Service
MCO        Mission Critical Occupation
                          Workforce Planning Efforts Are Hindered by a Lack of
                          Comprehensive Information on Employee Skills Levels




                                             Background

The mission of the Internal Revenue Service (IRS) is to provide America’s taxpayers with
top-quality service by helping them understand and meet their tax responsibilities and by
applying the tax law with integrity and fairness to all. The IRS cannot achieve this mission
without a workforce that possesses the skills and competencies (hereafter collectively referred to
as skills) necessary to meet current and future challenges. However, the abilities of the IRS to
both maintain and expand the skills of its workforce are being challenged by the increasingly
complex skills required of IRS employees and the potential that a large number of experienced
employees will retire in the near future. The work performed by IRS employees continually
requires enhanced and more diverse skills, as manual systems used to support tax administration
become computer based, the Tax Code becomes more complex, and American taxpayers and tax
practitioners expect higher levels of service.
An IRS mission critical occupation (MCO) is a position critical to front-line enforcement or in
direct support to front-line operations needed to meet stated program goals. Many MCOs within
the IRS, such as the revenue agent1 and revenue officer2 positions, continuously require greater
expertise and updated skills as the Tax Code becomes more intricate and attempts by taxpayers
and tax practitioners to evade compliance with the Tax Code become increasingly more
sophisticated. Other challenges facing the IRS include an increasing number of taxpayers with
complex financial holdings, increased complexity of examinations, growing impact of
international tax law issues, expanded technology skills sets, and the impact of significant tax
law changes. Finally, the Office of Personnel Management projects that more than
550,000 Federal employees–almost one-third of the entire full-time permanent workforce–will
leave the Federal Government by the end of 2012 (the majority through retirement). The Office
of Personnel Management further projects that nearly 40 percent of all current Federal
Government employees will retire by the end of 2016.3
To assist Federal Government agencies in addressing these issues, the Office of Personnel
Management was charged with designing systems and setting standards, including appropriate
measures for assessing the management of human capital4 by Federal agencies. In 2002, the
Office of Personnel Management issued the Human Capital Assessment and Accountability
Framework, which provides guidance to Federal Government agencies and requires workforce

1
  Revenue agents examine and audit the financial records of corporate and individual taxpayers, helping to ensure
that these taxpayers pay the appropriate taxes and comply with Federal tax laws.
2
  Revenue officers are responsible for collecting delinquent taxes and tax returns.
3
  The Office of Personnel Management projections were based on full-time permanent Federal Government
employees on rolls as of October 1, 2006.
4
  The term “human capital” is used to describe the skills, abilities, and contributions of the people in an agency.

                                                                                                              Page 1
                      Workforce Planning Efforts Are Hindered by a Lack of
                      Comprehensive Information on Employee Skills Levels



planning strategies, identification of competencies needed to fulfill the agency’s mission, and
analyses of any gaps. Sharing this responsibility within the IRS are the IRS Human Capital
Office (HCO) and the individual business units and operating divisions, with their embedded
human capital staff. The IRS created its IRS HCO in 2004 to provide human capital strategies
and tools for recruiting, hiring, and retaining a highly skilled and high-performing workforce.
This review was performed in the IRS HCO, Office of Appeals, Large and Mid-Size Business
Division, and Tax Exempt and Government Entities Division in Washington, D.C.; the Small
Business/Self-Employed Division in New Carrollton, Maryland; and the Wage and Investment
Division in Atlanta, Georgia, during the period September 2007 through September 2008. We
conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




                                                                                           Page 2
                      Workforce Planning Efforts Are Hindered by a Lack of
                      Comprehensive Information on Employee Skills Levels




                                Results of Review

Overall, the IRS lacks the comprehensive, agency-wide information on the skills of its
employees in MCOs required to effectively assess its current and future workforce needs. The
lack of employee skills information we identified is primarily attributable to the absence of a
corporate process for the uniform collection, compilation, and analyses of skills data across the
agency. Because the IRS does not yet have a comprehensive, agency-wide methodology in place
to fully measure its workforce against current and future skills, it is missing the opportunity to
reshape its workforce to meet future challenges as experienced workers retire, which could
adversely affect the quality of service provided to taxpayers.
The IRS HCO has begun to develop a methodology to identify and assess employee skills gaps at
the agency level, although significant work remains. For example, the IRS HCO informed us
that it plans to include questions regarding future skills needs and potential competencies gaps as
part of a workforce projection survey of senior managers in selected business units and operating
divisions scheduled to be initiated in January 2009. The IRS HCO also informed us that it is
evaluating the feasibility of partnering with the Office of Appeals to pilot a process to support
the performance of skills gaps assessments of employees in MCOs. Although these efforts
represent forward progress, the IRS still faces a significant challenge in implementing a process
to gather the uniform, agency-wide information on the skills of its employees in the MCOs.

Efforts to Develop a Comprehensive Methodology to Assess
Employee Skills Need to Be Better Coordinated
The IRS designated 19 occupations (e.g., the revenue agent and revenue officer positions) as
critical to front-line enforcement or in direct support of front-line operations. As of
September 30, 2007, 65,195 (64 percent) of the IRS’ 101,464 employees occupied 1 of these
19 MCOs. Federal Government agencies are required by Office of Personnel Management
standards to periodically identify gaps between competencies needed and possessed by
employees in MCOs and take actions as needed to close these gaps.
Overall, the IRS lacks comprehensive, agency-wide information on the skills of the employees in
its MCOs. Our March 2008 survey of 18 IRS business units and operating divisions identified
4 instances in which at least some steps had been taken toward implementing a skills gaps
assessment. However, these four efforts were in different stages of development, and each used
or planned to use a significantly different method for assessing skills and compiling results.
Until the IRS develops and implements a consistent methodology for assessing the skills needed
and possessed by all employees in MCOs, it will be unable to fully plan for future training and
recruitment needs.

                                                                                            Page 3
                           Workforce Planning Efforts Are Hindered by a Lack of
                           Comprehensive Information on Employee Skills Levels



The overall lack of comprehensive employee skills information is primarily attributable to the
absence of a corporate process for the uniform collection, compilation, and analyses of skills data
across the agency. In addition, the IRS HCO has not provided sufficient guidance to support the
uniform collection of these data at the business unit and operating division levels. However, the
IRS HCO has begun to develop a methodology to identify and assess employee skills gaps
agency-wide. Specifically, the IRS HCO informed us that it is evaluating the feasibility of
partnering with the Office of Appeals to develop a process for performing skills gaps
assessments of MCOs. The Office of Appeals has significant recent experience in the
performance of skills gaps analyses. In 2007, the Office of Appeals analyzed the skills necessary
for all of its positions and surveyed 138 managers and executives regarding the current overall
level of technical competency of its staff.
The proposed IRS skills assessments process would use the Enterprise Learning Management
System5 as a platform to collect information regarding critical skills needed and to document the
results of skills assessments. This platform would also allow for the preparation of development
plans tailored to address any skills gaps identified and would include an automated link between
the skills gaps assessment process and available training courses. A key objective of this effort
is the development of a skills assessment process that could ultimately be used agency-wide.
Previously, the IRS HCO primarily concentrated on providing technical support on skills gaps
assessment efforts focused on employees in a specific business unit or operating division.
While we believe that the current approach by the IRS HCO is reasonable, improvements are
needed to ensure accountability and maintain progress as the IRS moves forward with its efforts
to develop a skills gaps assessment process. Specifically, the IRS HCO has not developed a
detailed plan to guide the agency’s overall efforts and coordinate the multifunctional actions
necessary to ensure the success of this effort.
Until it has comprehensive information regarding the extent of its skills gaps, the IRS will
continue to miss an important opportunity to reshape its workforce to match its future needs. In
addition, the IRS’ lack of skills gaps information severely limits its ability to maximize the return
on its current skills improvement efforts. Finally, by not assessing and identifying skills gaps on
an ongoing basis, the IRS is increasing and perpetuating its risk that the skills currently
possessed by MCO employees will not keep pace with the skills needed to adequately perform
their jobs in the future.

Recommendations
Recommendation 1: The IRS Human Capital Officer should continue with efforts to partner
with one or more business units/operating divisions to develop a workable process that can be
used for the agency-wide skills gaps assessment of MCOs.

5
    The Enterprise Learning Management System is used for managing and documenting employee training.

                                                                                                        Page 4
                        Workforce Planning Efforts Are Hindered by a Lack of
                        Comprehensive Information on Employee Skills Levels



        Management’s Response: The IRS agreed with this recommendation. The IRS
        HCO in partnership with the Office of Appeals has initiated a pilot for assessing the
        competencies of tax compliance specialists, a mission critical occupation. A successful
        pilot will demonstrate the feasibility of implementing these automated processes
        throughout the Office of Appeals. The pilot will also be evaluated for expansion to other
        business units/operating divisions.
Recommendation 2: The Deputy Commissioner for Operations Support and Deputy
Commissioner for Services and Enforcement should develop a detailed plan to guide the IRS’
overall skills gaps assessment effort and coordinate the multifunctional participation necessary to
ensure the success of the effort. This plan should be developed in coordination with the IRS
business units and operating divisions, identify periodic milestones, and assign accountability for
specific actions. The plan should address the following three elements:
    1. Development of a process and sufficient guidelines to support consistent collection,
       compilation, and analyses of skills data across the IRS on an ongoing basis. This process
       should include identification of anticipated future challenges and the skills needed to
       address these challenges.
        Management’s Response: The IRS agreed with this recommendation. Under the
        auspices of the IRS Workforce of Tomorrow’s6 “Planning a Dynamic People Strategy,”
        the task force will work with subject matter experts from the IRS HCO and the business
        units to develop a competency management system. This group will identify the skills
        and competencies to be tracked across the IRS as well as the process for tracking skills
        and compiling the data.
    2. Implementation of this process by the business units and operating divisions in
       coordination with the IRS HCO.
        Management’s Response: The IRS agreed with this recommendation. Once the
        process is established, the system will be populated with skills and competencies
        information for each employee.
    3. Development of measures and goals to allow for an ongoing assessment of agency
       progress in closing any gaps identified in the skills of the workforce.
        Management’s Response: The IRS agreed with this recommendation. When the
        system is fully populated with skills and competencies data, it will be fed back into the
        IRS-wide attrition and workload models to enable strategic analysis of skills gaps and
        needs.



6
 The Workforce of Tomorrow task force was established by the Commissioner to ensure that 5 years from now the
IRS has the leadership and workforce ready for the next 15 years.
                                                                                                      Page 5
                      Workforce Planning Efforts Are Hindered by a Lack of
                      Comprehensive Information on Employee Skills Levels



                                                                                   Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate the IRS’ progress in developing a
methodology to evaluate whether its workforce possesses the skills and competencies (hereafter
collectively referred to as skills) necessary to meet current and future challenges. To accomplish
our overall objective, we:
I.     Determined how the IRS HCO works with the operating divisions and business units to
       assess and then potentially close any skills gaps among MCOs.
       A. Determined the level of interaction the IRS HCO has with the operating divisions and
          business units to assess and address skills gaps.
       B. Determined the level of oversight and support the IRS HCO is providing to the
          operating divisions and business units to assess and address skills gaps.
       C. Evaluated the status of any ongoing or planned efforts by the IRS HCO and/or the
          operating divisions and business units to develop a methodology for evaluating
          employee skills.
II.    Determined whether the operating divisions and business units were assessing and
       addressing skills gaps within their primary MCOs.
       A. Determined how the IRS identified its MCOs and evaluated the criteria used in
          making these determinations.
       B. Provided a questionnaire to each of the 18 operating divisions and business units
          responsible for the IRS’ 19 MCOs to determine whether and when any skills analyses
          were conducted.
III.   Reviewed the Office of Personnel Management guidance for Federal Government
       agencies on assessing and addressing skills gaps in the Federal Government workforce.
In order to determine the overall number of IRS employees and the number of employees in
MCOs as of September 30, 2007, we relied on Treasury Integrated Management Information
System reports provided to us by the IRS. We assessed the reliability of these data by
independently conducting online queries of the Treasury Integrated Management Information
System database and comparing the results to the reports we received. We found the Treasury
Integrated Management Information System data to be reliable for the purposes of the audit and
performed no other data validity tests. The Treasury Integrated Management Information
System is the IRS’ official automated personnel and payroll system.


                                                                                           Page 6
                    Workforce Planning Efforts Are Hindered by a Lack of
                    Comprehensive Information on Employee Skills Levels



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Alicia P. Mrozowski, Director
Anthony J. Choma, Audit Manager
Kevin P. Riley, Audit Manager
Gene A. Luevano, Lead Auditor
Tom J. Cypert, Senior Auditor
Kenneth E. Henderson, Senior Auditor
Nikki M. Thomas, Auditor




                                                                                   Page 7
                    Workforce Planning Efforts Are Hindered by a Lack of
                    Comprehensive Information on Employee Skills Levels



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Large and Mid-Size Business Division SE:LM
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Tax Exempt and Government Entities Division SE:T
Commissioner, Wage and Investment Division SE:W
Chief, Appeals AP
IRS Chief Human Capital Officer OS:HC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
   Commissioner, Large and Mid-Size Business Division SE:LM
   Commissioner, Small Business/Self-Employed Division SE:S
   Chief, Appeals AP
   IRS Chief Human Capital Officer OS:HC
   Director, Communications and Liaison, Tax Exempt and Government Entities Division
   SE:T:CL
   Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                   Page 8
      Workforce Planning Efforts Are Hindered by a Lack of
      Comprehensive Information on Employee Skills Levels



                                                  Appendix IV

Management’s Response to the Draft Report




                                                             Page 9
Workforce Planning Efforts Are Hindered by a Lack of
Comprehensive Information on Employee Skills Levels




                                                   Page 10
Workforce Planning Efforts Are Hindered by a Lack of
Comprehensive Information on Employee Skills Levels




                                                   Page 11
